-   May 06,2005




Infrastructure and Environment
Defense Security Service's Data Call
Submissions and Internal Control
Processes for Base Realignment and
Closure 2005




             Department of Defense                     E

            Office of Inspector General
 Quality             Integrity        Accountability
      Additional Copies
      To request copies of this report, contact Mr. Michael E. Simpson at (703) 604-8972
      (DSN 664-8972) or Mr. Thomas J. Hilliard at (703) 604-9062 (DSN 664-9062).
      Suggestions for Future Audits
      To suggest ideas for or to request future audits, contact Audit Followup and
      Technical Support at (703) 604-8940 @SN 664-8940) or fax (703) 604-8932.
      Ideas and requests can also be mailed to:
                     ODIG-AUD (visit ATTN: AFTS Audit Suggestions)
                         Department of Defense Inspector General
                           400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-4704




Acronyms
BRAC               Base Realignment and Closure
COBRA              Cost of Base Realignment Actions
DoD OIG            DoD Office of Inspector General
DSS                Defense Security Service
ICP                Internal Control Plan
JCSG               Joint Cross-Service Group
JPAT 7             Joint Process Action Team Criterion Number 7
OSD                Office of the Secretary of Defense
                         INSPECTORGENERAL
                         DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                         May 06,2005

MEMORANDUM FOR DIRECTOR, DEFENSE SECURITY SERVICE
SUBJECT: Report on Defense Security Service's Deta Call Submission# and Inkmd
         Control Rocesses for Base Realigunmt and Closure 2005 (Report No.
         D-2005460)

        We are providing this report for your i n f d o n and use. No wrinen reqonse to
this report was required, and m e was wived. Therefore, we are publishing this =port
in f d form.
       We appreciate the courtesies exbeaded to the staff. Questions should be dkccted
to Mr. BIUCCA. Burton at (703) 604-9071 (DSN 664-9071) or Mr. Thomas J. Hillierd at
(703) 604-9062 @SN 664-9062). See A p d i x B for the he Wdlstributioh The team
members arc listed inside the back ma.

                              Bv direction of tbe De~utyIusucctor Gar&    for Auditing:
               Department of Defense Office of Inspector General
Report No. D-2005-060                                                        May 06,2005
   (Project No. D2004-DOOOAB-0088.000)

Defense Security Sewice's Data Call Submissions and Internal Control
          Processes for Base Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure data calls and Defense Security Service
management personnel sbould read this report. The report discusses the adequacy,
completeness, and intemitv
                         - . of the data provided by the Defense Security Service to assist
the secretary of ~ e f e n s ein Base ~ e a l i b e nand~losure
                                                     t        2005 recomhendations.
Background. Base Realignment and Closure 2005 is the formal process outlined in
Public Law 101-510,"Defense Base Closure and Realignment Act of 1990," as amended,
under which the Secretary of Defense may realign or close military installations inside
the United States and its territories. As part of Base Realignment and Closure 2005, the
Under Secretary of Defense for Acquisition, Technology, and Logistics issued,
'Transformation Through Base Realignment and Closure (BRAC 2005) Policy
Memorandum One-Policy, Responsibilities, and Procedures," April 16,2003, which
provided for the DoD Office of Inspector General review of the accuracy of Base
Realignment and Closure data and the certification process.
The Base Realignment and Closure 2005 process was mandated for the United States and
its territories and was divided into the following data calls - capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criterion Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team
Criterion Number 7 data calls are collectively known as the second data call. We issued
two site memorandums for the capacity analysis data call and three site memorandums
for the second data call. This report summarizes issues related to the Defense Security
Service's Base Realignment and Closure process as of March 18,2005.
The Defense Security Service contributes to the national security community by
conducting personnel security investigations and providing industrial security products
and services, as well as offering comprehensive security education and training to DoD
and other Government entities.
Results. After corrections were made, the Defense Security Service Base Realignment
and Closure 2005 data were generally supported, complete, and accurate, and the data
collection processes generally complied with applicable internal control plans. In
addition, the Defense Security Service internal control plan properly incorporated and
supplemented the Office of the Secretary of Defense internal control plan. However, for
the scenario specific data calls, supporting documentation used in calculating the weight
of equipment that would need to be moved was insufficient. For all three data calls, some
supporting documentation was not marked as deliberative or not releasable under the
Freedom of Information Act, or both, as required by the internal control plan. Also, the
position of the individual who certified the BRAC scenario specific data did not match
the position listed in the Defense Security Service internal control pIan. The correct
person signed the certifications, but the job title changed. The internal control plan was
not revised to note the job title change. Despite these areas of noncompliance, we
determined that the data, responses, and sources were generally reasonable for the Base
Realignment and Closure 2005 process.
Management Comments. We provided a draft of this report on April 18,2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                           i

Background                                                                  I

Objectives                                                                  3

Finding
     Defense Security Service Base Realignment and Closure 2005 Data Call
        Submissions and Internal Control Processes

Appendixes
     A. Scope and Methodology
     B. Report Distribution
Background

    Base Realignment and Closure (BRAC) 2005. Public Law 10 1-5 10, "Defense
    Base Closure and Realignment Act of 1990," as amended, establishes the
    procedures under which the Secretary of Defense may realign or close military
    installations inside the United States and its territories. The law authorizes the
    establishment of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the BRAC 2005 deliberative bodies responsible
    for leadership, direction, and guidance. The Secretary of Defense must submit
    recommendations to the independent Commission by May 16,2005.
    Joint Cross-Semce Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opporhmities for greater
    joint activity. Office of the Secretary of Defense (OSD) established seven Joint
    Cross-Service Groups (JCSGs) - Education and Training, Headquarters and
     Support Activities, Industrial, Intelligence, Medical, Supply and Storage, and
    Technical. The JCSGs address issues that affect common business-oriented
    support functions, examine functions in the context of facilities, and develop
     closure and realignment recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that they
    reviewed.
    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its tenitones, was divided into the following data calls -
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), and Joint Process Action Team Criterion
    Number 7 (JPAT 7), and scenario specific. The supplemental capacity, military
    value, COBRA, and JPAT 7 data calls are collectively known as the second data
    call. The Services, Defense agencies, and Defense-wide Organizations used either
    automated data collection tools or a manual process to collect data call responses.
    Each data call had a specific purpose as follows.
               The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.
               The supplemental capacity data call clarified inconsistent data gathered
               with the initial capacity analysis data call.
               The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.
                      The COBRA data call gathered data to develop costs, savings, and
                      payback (formerly known as return on investments) of proposed
                      realignment and closure actions.
                      The JPAT 7 questions gathered data to assess the community's ability
                      to support additional forces, missions, and personnel associated with
                      individual scenarios.'
                      The scenario specific data call gathered data related to specific
                      scenario conditions for realignment or closure.
        Department of Defense Office of Inspector General (DoD OIG)
        Responsibility. Pursuant to "Transformation Through Base Realignment and
        Closure (BRAC 2005) Policy Memorandum One-Policy, Responsibilities, and
        Procedures," April 16,2003, the DoD OIG provided advice and recommendations
        on internal control plan (ICP) development and implementation, reviewed the
        accuracy of BRAC data, and evaluated the data certification processes. In
        addition, DoD OIG personnel assisted the JCSGs and DoD Components as
        needed. This report summarizes issues related to the Defense Security Service
        (DSS) BRAC 2005 process.
        Internal Control Plans. The ICPs outlined management controls designed to
        provide accountability for information used in the BRAC 2005 process. Before
        the BRAC data calls were released to the Services and Defense agencies, OSD
        required the Services, Defense agencies, and Defense-Wide Organizations to
        prepare ICPs that incorporated and supplemented the OSD ICP. The OSD ICP
        was issued in the Under Secretary of Defense for Acsuisition, Technolom. and
        Logistics' memorandum, "~ransibrmationThrough Base ~calignmentGd
        Closure (BRAC 2005) Policy Memorandum One-Policy, Responsibilities. and
        ~roced&es,"April 16; 2003: To align with the OSD ICP, DSS prepared,                        '

        "Defense Security Service (DSS) Internal Control Plan (ICP) for 2005 Base
        Realignment and Closure (BRAC) Process." The DSS ICP was updated on
        January 28,2004, with procedures to store and control BRAC data more
        efficiently. DSS used a manual process to collect data call responses.
        Defense Security Service. The DSS contributes to the national security
        community by conducting personnel security investigations and providing
        industrial security products and services. DSS also offers comprehensive security
        education and training to DoD and other Government entities. The DSS was
        formerly known as the Defense Investigative Service. DSS is transitioning from
        approximately 2,500 employees to 582 employees during the transfer of part of its
        mission to the Office of Personnel Management. DSS Headquarters' responses to
        BRAC questions were based on projections of the DSS organizational structure
        after the transition is completed, rather than providing responses that were based

' A scenario is a description of one or more potential closure or realignment actions identified for formal
 analysis by either a JCSG or a Military Department.




                                                      2
    on the specific time frames given for each question. As of January 2005, DSS had
    22 offices remaining open. We visited the Headquarters and the Academy offices
    during our review. We reviewed the responses for the three DSS locations that
    answered BRAC questions: DSS Headquarters; the Columbus, Ohio, regional
    office; and the DSS Academy. The rest of the offices were deemed by DSS to be
    too small to need to answer BRAC questions. Those offices are all less than
    1,500 square feet in size and have 10 or fewer personnel assigned. See
    Appendix A for a list of sites visited and question numbers reviewed for each data
    call.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DSS collected and submitted for the BRAC
    2005 process. In addition, we evaluated whether DSS complied with the OSD
    and DSS ICPs. This report is one in a series on data call submissions and internal
    control processes for BRAC 2005. See Appendix A for a discussion of the scope
    and methodology, the review of management controls, and prior audit coverage
    related to the objectives.
           Defense Security Service BRAC 2005
           Data Call Submissions and Internal
           Control Processes
           DSS reported BRAC 2005 data for sites visited or reviewed that was
           generally supported, accurate, and complete after corrections were made.
           The site data collection processes for the capacity data call, second data
           call, and scenario specific data call generally complied with applicable
           ICPs, and the DSS ICP properly incorporated and supplemented the OSD
           ICP. However, we noted the following conditions:
                  For the three scenario data calls, supporting documentation for the
                  computation of the weight of equipment to be moved was not
                  adequate,
                  The job title of the signature authority on the certifications of
                  BRAC scenario specific data changed but the DSS ICP was not
                  revised to note the change. The signature authority on the scenario
                  specific data call certifications did not agree with the title of the
                  signature authority specified in the DSS ICP, and
                  Some of the supporting documentation was not marked as
                  deliberative or not releasable under the Freedom of Information
                  Act, or both, as required by the ICP.
           The inadequate supporting documentation, the inconsistent titles of the
           certification signature authority, and the lack of proper document marking
           are considered immaterial and should not affect the reliability or integrity
           of the DSS data in the BRAC 2005 analysis.


Defense Security Service BRAC 2005 Data Call Submissions
    The BRAC 2005 data that DSS reported was generally supported, accurate, and
    complete after corrections were made. At each site, DSS answered specific
    questions, and we evaluated the validity, integrity, and supporting documentation
    of the targeted questions. DSS estimated information in its response to the data
    calls because of the ongoing change in the organization. Specifically, we
    compared responses to supporting documentation and reviewed "Not Applicable"
    question responses to determine whether the responses were reasonable.
    Capacity Analysis Data Call. The DSS sites that we visited for the capacity
    analysis data call provided accurate, reasonable responses and adequate
    supporting documentation after corrections were made. DSS Headquarters
        reviewed 753 capacity analysis questions to determine which were applicable to
        DSS. DSS Headquarters retained some of the targeted questions at DSS
        Headquarters, and forwarded the remainder to one training facility in the United
        States. We evaluated the responses and supporting documentation at both sites in
        the United States (see Appendix A for a list of sites visited and questions
        reviewed). At the sites, we identified responses with inadequate support or that
        were inaccurate and, as a result, DSS provided additional documentation that we
        considered to be adequate. Also, DSS corrected one response and provided
        documentation to support the correction. We verified and concurred with the
        change. We did not verify whether the change was made in the OSD database.
        Second Data Can. The DSS data reviewed for the second data call provided
        accurate, reasonable responses and adequate supporting documentation after
        corrections were made, except for JPAT 7 questions 1405, 1406, and 1407 and
        Headquarters and Support Activities JCSG military value questions 1907 and
        1908. DSS Headquarters was unable to obtain data kom the local school district
        to answer JPAT 7 questions 1405, 1406, and 1407; therefore we could not make
        any determination on those answers. For Head uarters and Support Activities
        JCSG military value questions 1907~and 1908,7 we were unable to validate the
        steps taken to generate the data and did not make a determination on whether the
        supporting documentation was reasonable or accurate. For the second data call,
        DSS received targeted questions and DSS Headquarters answered the questions
        and forwarded questions to one regional office and one training facility in the
        United States. We evaluated the responses and supporting documentation for all
        three offices at DSS Headquarters and identified responses with inadequate
        support and inaccurate responses. As a result, the DSS sites revised their
        responses and provided documentation to support the changes. We verified and
        concurred with the changes. We did not verify whether those changes were made
        in the OSD database.
        Scenario Specific Data CaU. DSS responded to three Headquarters and Support
        Activities JCSG scenarios on November 24,2004. We reviewed the three
        scenario data call responses at DSS Headquarters and determined that DSS
        provided reasonable responses with adequate supporting documentation with one
        exception. In each of the three responses, DSS was asked to provide the weight,
        in tons, of the mission equipment and support equipment that would have to be
        moved as part of the scenarios. DSS estimated the quantity and weight of
        equipment and provided us with a memorandum for the record that discusses the
        methodology used. As of March 18,2005, we determined that their approach and
        the resultant figures were reasonable, but that the supporting documentation for


' Questions 1405, 1406, and 1407 are all related to the educational system in the local community.
"fie question asks for thr numher of meeting, between an organization's senior officials, including tlag
 officers, and senior ol'licials from another orgauizat~onlocated in the Washington. D.C., area.
 The question asks for the number of meetings between an organization's senior oficials, including flag
 ofieers, and Members of Congress or their staffs.
     the calculations was inadequate. We considered the effect of the lack of
     documentation to be immaterial.


Internal Control Processes

     The DSS site data collection processes for the capacity analysis, second, and
     scenario specific data calls generally complied with applicable ICPs. The DSS
     ICP properly incorporated and supplemented the OSD ICP; however, we had
     concerns with the title of the person responsible for certification and the marking
     of BRAC data.
     We evaluated 1CP compliance for the capacity analysis data call at two sites, the
     second data call resDonses for three sites. and the scenario s~ecificdata call at one
     site. During the daia calls, we visited DSS Headquarters an2 the DSS Academy
     where we evaluated DSS BRAC 2005 data collection processes to determine
     whether they complied with OSD and DSS ICPs. (See Appendix A for a list of
     sites visited.) We reviewed whether the DSS ICP incorporated and supplemented
     the OSD ICP and whether sites completed nondisclosure agreements, marked,
     safeguarded, and maintained BRAC data. Specifically, we reviewed
     nondisclosure agreements, documents marked as deliberative and not releasable
     under the Freedom of information Act, and safeguards for the BRAC
     documentation to ensure that the DSS complied with the ICPs.
     Completeness of ICPs. The DSS BRAC 2005 ICP is meant to ensure the
     accuracy, completeness, and integration of all information and analytical
     processes upon which the DSS submits information to the various BRAC groups.
     The DSS BRAC 2005 ICP also has a goal of limiting the possibility of premature
     disclosure of BRAC 2005 information. The ICPs outlined the need for an
     unbroken chain of accountability for BRAC information and included direction on
     responsibilities and the process to be followed.
     The DSS ICP states that the Chief of Staff is responsible for the certification and
     release of all data calls, and delegates the Chief of Staff with the final authority
     for all matters associated with the DSS 2005 BRAC process. However, DSS does
     not have a Chief of Staff it has a Chief Operating Officer to certify the BRAC
     data. The Chief Operating Officer has similar duties to those of a Chief of Staff.
     The correct person signed the certifications, but the job title changed and the ICP
     was not revised to note the change. We consider the ICP issue to be immaterial in
     its effect on the usefulness of the BRAC data, but the ICP should be revised to
     correctly assign BRAC authority and responsibility to the Chief Operating
     Officer.
     Compliance with ICPs. DSS sites were generally compliant with the ICP
     procedures. The site data collection processes for the capacity analysis, second,
     and scenario specific data calls generally complied with applicable ICPs.
    Nondisclosure agreements were signed and documents were properly safeguarded.
    However, as of March 18,2005, some of the BRAC documentation for all three
    rounds was not marked as deliberative or not releasable under the Freedom of
    Information Act, or both, as required by the ICP. We consider the noncompliance
    with the ICP procedures to be immaterial because it should not affect the
    reliability or integrity of the DSS data in the BRAC 2005 analysis.


Conclusion
    The DSS responses to the BRAC 2005 data calls were generally supported,
    complete, and reasonable, once corrected. However, because DSS was unable to
    obtain data from the local community to answer three JPAT 7 questions for the
    second data call, we could not make a determination on those questions or
    answers. We were unable to validate the steps taken to generate the data for two
    other second data call questions and did not make a determination whether the
    support was reasonable or accurate. Supporting documentation for some
    calculations was inadequate for the scenario specific data calls. DSS generally
    complied with the ICPs and properly incorporated and supplemented the OSD
    ICP. However, for all three data calls, some of the supporting documentation was
    not properly marked as deliberative or not releasable under the Freedom of
    Information Act, or both, as required by the ICP, but the documentation was
    properly safeguarded. Also, the title of the signature authority on the
    certifications of BRAC scenario data did not agree with the title of the signature
    authority specified in the DSS ICP. We determined that all of the issues were
    immaterial and will not affect the reliability or integrity of the DSS BRAC 2005
    data.
    We discussed the results of the data call submissions and the ICP review with
    DSS management. DSS management concurred with the findings and stated they
    will mark the documentation as specified in the ICP.
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of DSS BRAC
   2005 data. The evaluation included comparing responses to supporting
   documentation and reviewing Not Applicable VIA) responses to determine
   whether the responses were reasonable. Questions had either an answer or an N/A
   response; the N/A response was for questions that did not apply to a site. We
   determined that the DSS ICP incorporated and supplemented the requirements of
   the OSD ICP. We evaluated site data collection procedures, such as use of
   nondisclosure agreements, proper storage of BRAC data, and marking of
   documentation to determine whether they were in compliance with ICP
   procedures. In addition, we interviewed the personnel responsible for preparing
   and certifying the responses to the data calls. We did not verify that the DSS
   responses were in the OSD database for the capacity analysis or second data calls.
   DSS was downsizing from approximately 2,500 people to 582 employees as part
   of transferring a segment of its mission to the Ofice of Personnel Management.
   DSS Headquarters' responses to BRAC questions were based on projections of
   the DSS organizational structure after the transition is completed, rather than
   providing responses based on the specific time frames given for each question.
   As of January 2005, DSS had closed 50 offices, and 22 ofices remained open.
   We reviewed the responses for the three DSS locations that answered BRAC
   questions. We visited the DSS Headquarters and Academy ofices during the
   review. We reviewed the data for the Columbus, Ohio regional ofice at DSS
   Headquarters. The rest of the DSS ofices had only a few personnel each and
   DSS deemed them too small to need to answer BRAC questions.
   Capacity Analysis Data Call. DSS Headquarters received 753 capacity analysis
   data call questions, reviewed the data call questions, and forwarded specific
   questions to each DSS site. Specifically, DSS Headquarters targeted 70 questions
   to DSS Headquarters, and 19 to one training facility. We did not validate DSS
   Headquarters' selection process.
   We evaluated the DSS data call responses at each DSS site that we visited. We
   issued two memorandums to summarize the results of these site visits. Table 1
   identifies the questions reviewed at each site.
                 Table 1. Capacity Analysis Data Call Questions Reviewed



  Defense Security Service Site
DSS Headquarters,
                                           w   31 1,386,393,446,448,
                                                                             Number
                                                                                Not Avvlicable

Alexandria, Virginia                           460,462, 466,468,47 1,
                                               472,480,482, and 582




1 DSS Academy,                             I   107 and 749
 Linthicum, Maryland

         Second Data Call. DSS Headquarters received targeted questions from the
         JCSGs. Specifically, DSS received Headquarters and Support Activities JCSG
         military value question numbers 1904-1927,' 1947-1957; Headquarters and
         Support Activities JCSG supplemental capacity question numbers 4072-4074,
         4079-4081,4096, and 4099-4103; Education and Training JCSG supplemental
         capacity question numbers 4000-4001;Medical JCSG supplemental capacity
         question numbers 4242-4246; COBRA question numbers 1500-1507; and JPAT 7
         question numbers 1400-1417, and 1420-1421.~DSS Headquarters reviewed the
         data call questions and decided to send all of the questions to three sites. We did
         validate the DSS Headquarters' selection process. DSS complied with the
         requirement for all stand-alone facilities and host installations, which included
         leased facilities, to answer P A T 7 and COBRA data call questions. DSS
         stand-alone facilities included DSS Headquarters, one regional ofice in
         Columbus, Ohio, and the DSS Academy. The regional office and the Academy
         sent their responses and supporting documentation back to DSS Headquarters
         where we conducted our audit.
         DSS Headquarters, the regional ofice, and the DSS Academy received the same
         82 questions. The DSS Academy also answered 20 initial capacity analysis
         questions during the second data call that the other sites did not. In addition to
         reviewing the second data call responses, we followed up on outstanding issues


 ' Questions 1907 and 1908 ask for the number of meetings between an organization's senior officials,
  including flag officers, and senior officials from another organization located in the Washington, D.C.,
  area, and Members of Congress or their staffs, respectively.
  The JPAT 7 group decided to replace PAT 7 questions 1418 and 1419 with JPAT 7 questions 1420 and
  1421.
       from the capacity analysis data call. We evaluated initial capacity analysis
       question number 107 for the DSS Academy.
       We issued three site memorandums to summarize the results of the sites'
       responses. Table 2 identifies the questions reviewed for the three DSS sites.

                   Table 2. Second Data Call Questions Reviewed


                                                      Questic Number
  Defense Security Service Site             Answered               Not Applicable
DSS Headquarters,                   1400-1417,1420,1421,      1500,1502-1504,1506,
Alexandria, Virginia                                          1507, 1904-1906, 1909,
                                                              1910,1912, 1913, 1915,
                                                              1917-1927, 1947-1957,
                                                              4000,4001,4072-4074,
                                                              4079-408 1, and 4242-
                                                              4246
DSS Academy,                        97, 98, 104, 106, 107,    18, 94-96,99, 100, 105,
Linthicum, Maryland                 112, 749, 1400-1417,      108-111,750,751, 1500,
                                    1420,1421,1501, 1505, 1502-1504, 1506, 1507,
                                    1911,4096, and 4099-      1904-1910, 1912-1927,
                                    4103                      1947-1957, 4000,4001,
                                                              4072-4074,4079-4081,
                                                              and 4242-4246
DSS Columbus, Columbus, Ohio        1400-1417, 1420-1421,     1500, 1502-1504, 1506,
                                    1501, 1505, and 4096      1507,1904-1927,1947-
                                                              1957,4000,4001,4072-
                                                              4074,4079-408 1,4099-
                                                              41 03, and 4242-4246


       Scenario Specific Data CaU. As of March 18,2005, DSS received three scenario
       specific data calls from OSD and submitted responses. The three scenarios were
       Headquarters and Support Activities JCSG Scenarios HSA-0072, HSA-0095, and
       HSA-0100. All three scenarios were answered at DSS Headquarters. We
       evaluated the responses and supporting documentation. Scenario specific data
       calls that may have been received and responded to by DSS after the audit were
       not reviewed.
    We performed this audit from January 2004 through April 2005 in accordance
    with generally accepted government auditing standards.
    Use of Computer-Processed Data. We did not test the accuracy of the
    computer-processeddata used to support an answer to a data call question because
    of time constraints. Potential inaccuracies in the data could affect the results.
    However, the BRAC data were certified as accurate and complete to the best of
    the certifier's knowledge and belief.
    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several hi&-risk areas in DoD. This raort
    provides coverage of the Management of ~ e d Real  d Property and DoD sipport
    Infrastructure Management high-risk areas.


Management Control Program Review

    We evaluated the DSS management controls for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed the relevant
    ICPs, checked nondisclosure agreements and data certifications, and verified that
    documentation was prop~rlymarked and stored; however, two issues required
    disclosure. The title of the signature authority on the certifications of BRAC
    scenario data did not agree wlth the title of the signature authority specified in the
    DSS ICP, and some of the supporting documentation was not marked as
    deliberative or not releasable under the Freedom of Information Act, or both, as
    required by the ICP. We determined that those issues are immaterial. Overall,
    management controls were adequate as they applied to the audit objective (see
    finding discussion for details). We did not review the DSS management control
    program because its provisions did not apply to the one-time data collection
    process.


Prior Coverage

    During the last five years, the DoD OIG has issued five memorandums on DSS
    BRAC 2005.

DoD OIG

    Site Memorandums
DoD OIG Memorandum, "Audit on the Second Data Call Submission From
Defense Security Service Headquarters for Base Realignment and Closure 2005,"
February 14,2005
DoD OIG Memorandum, "Audit on the Second Data Call Submission From
Defense Security Service Academy to Defense Security Service Headquarters for
Base Realignment and Closure 2005," February 14,2005
DoD OIG Memorandum, "Audit on the Second Data Call Submission From
Defense Security Service Columbus to Defense Security Service Headquarters for
Base Realignment and Closure 2005," February 14,2005
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
                                                        -
From Defense Security Service Headauarters for Base Realiment and Closure
2005," April 20,2004-
DoD 01G Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Security Service Academy to Defense Security Service
Headquarters for Base Realignment and Closure 2005," April 1,2004
Appendix B. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)

Other Defense Organizations
Director, Defense Security Service

Non-Defense Federal Organization
Government Accountability Office*




' Only Government Accountability Office personnel involved in the BRAC process are to receive the
 report.
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing.
~ c ~ u i s i t i oand
                    n Technology Management prepared this report. Personnel of th;
De~artmentof Defense Ofice of Insvector General who contributed to the renort
arelisted below.
Bruce A. Burton
Michael E. Simpson
Thomas J. Hilliard
Gloria J. Parker
Christopher D. Westphal
Jacqueline N. Pugh
